      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                       Washington, D.C. 20201




September 7, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Lori S. Pilcher/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicare Payments Exceeding Charges for Outpatient Services
              Processed by National Government Services in Jurisdiction 8 for the Period
              January 1, 2006, Through June 30, 2009 (A-05-10-00017)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by National Government Services in
Jurisdiction 8. We will issue this report to National Government Services within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov
or Stephen Slamar, Acting Regional Inspector General for Audit Services, Region V, at
(312) 353-7905 or through email at Stephen.Slamar@oig.hhs.gov. Please refer to report number
A-05-10-00017.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601
September 12, 2011

Report Number: A-05-10-00017

Ms. Sandra Miller
President
National Government Services
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by National Government Services in Jurisdiction 8 for the Period
January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact Leslie
Preuss, Senior Auditor, at (217) 793-5010, extension 104, or through email at
Leslie.Preuss@oig.hhs.gov or Jaime Saucedo, Audit Manager, at (312) 353-8693 or through
email at Jaime.Saucedo@oig.hhs.gov. Please refer to report number A-05-10-00017 in all
correspondence.

                                             Sincerely,



                                             /Stephen F. Slamar/
                                             Acting Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



REVIEW OF MEDICARE PAYMENTS
   EXCEEDING CHARGES FOR
     OUTPATIENT SERVICES
   PROCESSED BY NATIONAL
    GOVERNMENT SERVICES
      IN JURISDICTION 8
FOR THE PERIOD JANUARY 1, 2006,
    THROUGH JUNE 30, 2009



                        Daniel R. Levinson
                         Inspector General

                         September 2011
                          A-05-10-00017
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

National Government Services is the Medicare contractor for most providers in Jurisdiction 8 in
Indiana and Michigan. During our audit period (January 1, 2006, through June 30, 2009),
approximately 217.6 million line items for outpatient services were processed in Jurisdiction 8,
of which 1,409 line items had (1) a Medicare line payment amount that exceeded the line billed
charge amount by at least $1,000 and (2) 3 or more units of service. (A single Medicare claim
from a provider typically includes more than one line item. In this audit, we did not review
entire claims; rather, we reviewed specific line items within the claims that met these two
criteria. Because the terms “payments” and “charges” are generally applied to claims, we will
use “line payment amounts” and “line billed charges”). We did not review two line items
associated with two providers that were in bankruptcy.

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
National Government Services made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of 1,407 selected line items for which National Government Services made Medicare payments,
957 line items were incorrect and included overpayments totaling $7,005,147, which the



                                                i
providers had not refunded by the beginning of our audit. Providers refunded overpayments on
60 line items totaling $964,497 before our fieldwork. The 390 remaining line items were correct.

Of the 957 incorrect line items:

   •    Providers reported incorrect units of service on 830 line items, resulting in overpayments
        totaling $6,293,904.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 68 line items, resulting in overpayments totaling $360,452.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 52 line
        items, resulting in overpayments totaling $325,237.

   •    Providers did not provide the supporting documentation for seven line items, resulting in
        overpayments totaling $25,554.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
National Government Services made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place during our audit period
to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $7,005,147 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our first
recommendation and stated that it had reviewed all of the claims detailed in our audit and
recovered overpayments totaling $7,045,358. Citing limitations within CMS’s Part A processing
system, National Government Services stated that our second recommendation to implement
system edits would “require additional clarification and discussion.” Finally, regarding our
recommendation for provider education activities, National Government Services stated that it
would continue its global approach to provider education and follow CMS’s Internet Only
Manual. National Government Services’ comments are included in their entirety as the
Appendix.



                                                   ii
OFFICE OF INSPECTOR GENERAL RESPONSE

We encourage National Government Services to implement system edits to the extent possible
under its current contract with CMS.




                                             iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors ...................................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        National Government Services ....................................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ............................................................................................................................... 2
        Methodology ................................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Unsupported Services ..................................................................................................... 5

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 5

      RECOMMENDATIONS ...................................................................................................... 6

      NATIONAL GOVERNMENT SERVICES COMMENTS ................................................. 6

      OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................... 6

APPENDIX

      NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                      iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
National Government Services

National Government Services is the Medicare contractor for most providers in Indiana and
Michigan. On January 7, 2009, CMS awarded National Government Services the contract for
administration of Medicare Part A and B claims in Jurisdiction 8, consisting of Indiana and
Michigan. However, because of a protest filed against the award on January 26, 2009, the legacy
fiscal intermediaries and carriers have continued to service the providers in Jurisdiction 8.
National Government Services was, and continues to serve as, the legacy fiscal intermediary for
providers in Indiana and Michigan. During our audit period (January 1, 2006, through June 30,
2009), approximately 217.6 million line items for outpatient services were processed in
Jurisdiction 8.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
National Government Services made to providers for outpatient services were correct.

Scope

Of the approximately 217.6 million line items for outpatient services that National Government
Services processed during the period January 2006 through June 2009, 1,409 line items had (1) a
Medicare line payment amount that exceeded the line billed charge amount 3 by at least $1,000
and (2) 3 or more units of service. We did not review two line items associated with two
providers that were in bankruptcy.

We limited our review of National Government Services’ internal controls to those that were
applicable to the selected payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

Our fieldwork included contacting National Government Services, in Louisville, Kentucky, and
the 131 providers that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;



3
  The terms “line payment amount” and “line billed charges” signify that a single Medicare claim from a provider
typically includes more than one line item.


                                                        2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line item had 3 or more units of service; 4

    •   identified 1,407 line items totaling approximately $10 million that Medicare paid to 132
        providers;

    •   contacted 131 providers that received Medicare payments for 1,352 line items 5 to
        determine whether the information conveyed in the selected line items was correct and, if
        not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with National Government Services; and

    •   discussed the results of our review with National Government Services on
        February 8, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Of 1,407 selected line items for which National Government Services made Medicare payments,
957 line items were incorrect and included overpayments totaling $7,005,147, which the
providers had not refunded by the beginning of our audit. Providers refunded overpayments on
60 line items totaling $964,497 before our fieldwork. The 390 remaining line items were correct.

Of the 957 incorrect line items:

    •   Providers reported incorrect units of service on 830 line items, resulting in overpayments
        totaling $6,293,904.

    •   Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 68 line items, resulting in overpayments totaling $360,452.

4
 For this audit, we reviewed those line items that met the stated parameters. We applied these parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.
5
  We did not review 55 of the 1,407 selected line items because providers refunded overpayments before our
fieldwork, and therefore, payments no longer exceeded charges by at least $1,000 for those line items.


                                                        3
       •   Providers used HCPCS codes that did not reflect the procedures performed on 52 line
           items, resulting in overpayments totaling $325,237.

       •   Providers did not provide the supporting documentation for seven line items, resulting in
           overpayments totaling $25,554.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
National Government Services made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place during our audit period
to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.” 6
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 830 line items, resulting in overpayments totaling
$6,293,904. The following examples illustrate the incorrect units of service:

       •   One provider billed Medicare for incorrect service units on 36 line items. Rather than
           billing between 500 and 1,300 service units (the correct range for the HCPCS codes
           associated with these line items), the provider billed between 5,000 and 13,000 service
           units. These errors occurred because the provider’s chargemaster 7 was incorrect. As a

6
 Prior to CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.
7
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.

                                                           4
           result of these errors, National Government Services paid the provider $1,120,426 when
           it should have paid $78,250, an overpayment of $1,042,176.

      •    Another provider billed Medicare for incorrect service units on 22 line items. Rather
           than billing for one service unit, the provider billed for the number of minutes per office
           visit. These errors occurred because the provider’s computer software was programmed
           incorrectly. As a result of these errors, National Government Services paid the provider
           $112,046 when it should have paid $893, an overpayment of $111,153.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on 68 line items, resulting in overpayments totaling $360,452. For example, a provider
billed Medicare for six line items with an incorrect procedure code and units of service. The
provider billed 270 units of service for 5 of these line items and 300 units of service for the
remaining line item. However, the provider should have billed using a different procedure code
with nine units of service. As a result, National Government Services paid the provider $11,792
when it should have paid $540, an overpayment of $11,252.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 52 line items,
resulting in overpayments totaling $325,237. For example, a provider billed Medicare for four
line items using a HCPCS code for an injection used to prevent respiratory syncytial virus
instead of the correct HCPCS code for an injection of a glycoprotein hormone used for
controlling red blood cell production. As a result of these errors, National Government Services
paid the provider $93,731 when it should have paid $1,156, an overpayment of $92,575.

Unsupported Services

Two providers billed Medicare for seven line items for which the providers did not provide
supporting documentation. The providers agreed to cancel the claims associated with these line
items and refund the combined $25,554 in overpayments that they received. 8

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
National Government Services made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place to prevent or detect the
overpayments. In effect, CMS relied on providers to notify the Medicare contractors of incorrect




8
    The providers had not refunded the overpayments by the beginning of our audit.

                                                          5
payments and on beneficiaries to review their Medicare Summary Notice and disclose any
overpayments. 9

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect all errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that National Government Services:

     •   recover the $7,005,147 in identified overpayments,

     •   implement system edits that identify line item payments that exceed billed charges by a
         prescribed amount, and

     •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our first
recommendation and stated that it had reviewed all of the claims detailed in our audit and
recovered overpayments totaling $7,045,358. Citing limitations within CMS’s Part A processing
system, National Government Services stated that our second recommendation to implement
system edits would “require additional clarification and discussion.” Finally, regarding our
recommendation for provider education activities, National Government Services stated that it
would continue its global approach to provider education and follow CMS’s Internet Only
Manual.

National Government Services’ comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We encourage National Government Services to implement system edits to the extent possible
under its current contract with CMS.




9
  The Medicare contractor sends a Medicare Summary Notice— an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                         6
APPENDIX
                                                                                                                   Page I of 2



   APPENDIX: NATIONAL GOVERNMENT SERVIC ES COMMENTS 



....,LNatiOnaIGoVemment
  }If        services.                                                                           Medicare
    ~ Go-.....,t ServIaeI. Inc. 

    BlISXnuotRDld 

    Indlmopoill. ~462»1936 

    ACMS o.,nocItII Ar'

    July 15,2011


    Mr. James C. Cox 

    Regionallnspe<:tor General for Audit Services 

    OffICe of Inspector General 

    Office ofAud it Services, Region V 

    233 North Michigan Avenue. Suite 1360 

    Chicago. IL 60601

    ReportNumber. A..o5-IO-OOO17

    Dear Mr. Colt,



    The following presents our response to the comments made in your report dated lum )4, 201 1:

    Rcwmmeodaljon I - Recover the 17.005, 147 in identified oycrpayments
    A review was performed on all outpatient claims detai led in the aud it. The ~uired aelions have been
    completed, aUowing National Govemmc:nl Services 10 rocover $7,04'5.357.67 m overpayments.

    ReconuneMaljon 2 _ Implement system edits lhal idealjty line item payments that I!ICceed billed 

    charges by a pmcdbed amoynt 


    Upon further review of th is rcoommendation, the requested edits will require additional clarification and
    discussion. Due to syslem limitations within the eMS Part A prnccssing system, it is uoclear bow a
    compllri$On may be made prior to moving through Ihe Pricer. Financial calculations are complekd once
    the claim is stored and ready to send. to CWF.

    There is a possibility to suspend certain APC or ORO, however, a manual review ofmany claims wou ld
    have to be completed. Th is type ofed it would create signiflC8Jlt additKmal workload.

    If particular revenue codes or HCPC codes ....-ete ident ified in this review, National: Government Services
    could set up an edit to suspend those meeting pre<!etennined criteria for unilS and/or amount billed. This
    effort would resu lt in a smaller additional llWluaI effort to set up, test. and move to production. Once in
    production, there wou ld need to be a prescribed review, either local or national, to maintain this edit for any
    needed updates.

    Further consideration is respectfully being ~uested with regards to this recQmmendation.

    Recom mendotion J - t lse th e results of tbi5 audit in its provider ed ucatjon actjyities

    A global response is provided for all states serviced by National Government Services. The education
    approach is consistent for a ll lines of business. This communication will continue to be shaR:d as
    instruded per the 10M, using multiple means to educate.


                                                                                                     CAIS/
                                                                                            -·_·--7 

                                     Page 2 of2




Sincerely yours,


~~JJMrYO&
Director NGS Operations Excel1ence
